No.:
IN THE SUPREME COURT OF THE UNITED STATES
JEFFREY LANCE HILL, Petitioner,
v.
LEANDRA G. JOHNSON, individual, et al, Respondents.
CERTIFICATE OF WORD COUNT
As required by Supreme Court Rule 33.1(h), I hereby certify that my Petition for
Writ of Certiorari contains 3,962 words excluding those parts of the document
exempted by Supreme Court Rule 33.1(d). I declare under penalty of perjury that
the foregoing is true and correct.
Executed on this

10

3i rt day of January, 2020.

//We-

908 SE Country Club Road

Lake -City, Florida 32025
Phone: 386-623-9000

„Jeffrey Lance Hill, Sr., Petitioner pro se

